      OFFICE of 

 iNSPECTOR GENERAL 


Date 	    July 29, 2013

Reply to : 	 Office   of Inspector General (OIG)
                                                           .
Subject : 	 Management  Letter 13-13, The Management Control Environment over Archival
          Operations at the National Archives at San Bruno, CA Needs to be Urgently Addressed

To 	      DavidS. Ferriero, Archivist of the United States (N)

The purpose ofthis management letter is to bring to your attention serious management control
weaknesses we observed during a limited visit, which put NARA records at risk of loss.
Specifically, Archival operations at the National Archives at San Bruno, CA (RW-SB) are in dire
straits. While researchers are consistently provided extensive personal service; the accessioning,
processing and maintenance of records runs "on desperation and panic." The facility lacks
policies and procedures for basic operations, and lacks the organizational structure needed to
sustain operations. Currently R W -SB operations are primarily dependent on the personal
experience and knowledge of select staff. There are no continuity plans and should these
employees be unavailable for work it would severely impact RW-SB's ability to locate and serve
records. In our opinion, due to the issues discussed below R W -SB does not have appropriate
physical or intellectual control over NARA's holdings.

Staff interactions with management

During this review we observed a limited amount of staff interaction with management. While
this was not intended to be a focus point for our review, we believe there may be serious issues
meriting further senior management review. For example, we observed a staff member acting
openly defiant to management direction and engaging in confrontational behavior with
management. We were also informed management has tried to implement some new directives
and changes to work processes. However, we have been told staff openly disregard these
directions when management is not around to observe and enforce them.

No process for refiling records

RW-SB has no defined process for refiling NARA accessioned records which have been pulled
off of the shelves. Further, there are no written policies or procedures on refiles. Multiple carts
and shelflocations throughout the stacks and other work areas contain NARA accessioned
records awaiting refiling. A recent safety inspection noted 43 loaded carts/streamliners parked in
the stack areas alone. Despite a reported clean-up after the inspection, many loaded carts remain.




                                     NARA's web site is http://www.nara.gov
Refiles include records which have been served to researchers, and records which are part of
various staff"projects." There are no standards for how long refiles can stay off of the shelves,
and some of these records have been located on carts for years. There is little or no
documentation accompanying many of the "project" records, and the only information on these
records is the personal knowledge of select employees. Several of the researcher-served refile
records on carts did not have accompanying pull slips. Some of the records which were
accompanied by pull slips had unexplained irregularities with the slips, such as listing more
containers than were on the cart or describing records which were not on the cart. As was noted
in the recent safety inspection, "it was explained that the documents on the carts are to be re-filed
but do not know what they are, who pulled them or where they belong as there is no action
location aide to assist in re-file. Only the person who pulled the document/asset knows where it
needs to be re-filed and is reluctant to do so."

We attempted to perform one "reverse refile" where we examined a pull slip on the shelf and
then attempted to find the record. The pull slip was over three months old, and was for two
items furnished from two separate boxes to a researcher. No system or file contained
information about the records' locations. Staff searched several carts in the stacks near the
research room, a processing area, and a staff office, but the records could not be found. We were
informed the only way to potentially find the records would be a manual search through all carts
and staff areas.

HMS data is inaccurate, and HMS is not used effectively

RW-SB is not utilizing NARA's Holding Management System (HMS) effectively, and cannot
rely on the limited data in HMS concerning holdings at R W-SB. HMS is an agency-wide
computerized system supporting the physical management of NARA holdings. One function of
HMS is detailing exact locations of accessioned records in stack areas. However, RW-SB' s
HMS records locations are not consistently reliable. We sampled 16 records series from HMS,
and generally found the records at the location indicated. However, it was explained this
occurred primarily because the sample was comprised mainly of smaller records series. RW­
SB's data for larger series is flawed, due to a discrepancy between the number of boxes HMS
allows on each shelf versus the number which can actually fit. When HMS was initially
populated with RW-SB's legacy system data, this discrepancy resulted in HMS recording
arbitrary locations for boxes. For larger series of records, this arbitrary assignment of location
compounded over multiple shelves resulting in the actual locations of specific boxes being
entirely incorrect.

Further, a preliminary review ofHMS data indicates there may be a more a serious problem.
The stack areas in the archival operations appear to be almost at capacity. In fact, space
limitations have forced RW-SB to "accession in place" over 24,000 cubic feet of records at the
co-located Federal Records Center (FRC). However, HMS shows approximately 36% ofRW­
SB 's archival shelf space, capable of holding over 20,800 cubic feet, is currently available.
Particularly disturbing is the map room area, a sizable room which is visibly filled with records.
Yet, according to HMS, it only contains approximately seven cubic feet of records. One series



                                                Page2 

                                 NARA's web site is http://www.nara.gov 

containing 28 tubes of records was selected from the map room, and no information about these
records could be found in HMS. However, they were found in local finding aids. Thus it
appears RW-SB may have substantial amounts ofNARA accessioned records in storage, but
completely unaccounted for in HMS.

Additionally, HMS is not consistently updated to reflect the status of the holdings. For example,
for two records series we observed incorrect numbers of containers in HMS. In both instances
HMS had fewer containers listed than those on the shelves, apparently due to an increase in
containers after staff performed holdings maintenance. In a third instance HMS stated a series
was in two containers. However, when staff processed the materials to serve, they removed
restricted materials and placed them in a third, unmarked box on the shelf which was not entered
into HMS. Further, according to HMS, RW-SB currently holds 156 cubic feet of classified
records, 450 cubic feet of records declassified in part, and over 27,000 cubic feet of records with
an unknown classification status. Some staff stated the most accurate system was their locally
produced inventories, which they stated were being kept up to date. Some staff also expressed
the process to update HMS is not user friendly. Instead of updating HMS concurrently with
changes on the shelves for larger groups of records, they preferred to create a new, separate
database of changes to be migrated into HMS at a later date. Based upon all of the issues
identified above, the validity ofRW-SB's data in HMS is questionable in its entirety, and it is
unknown whether RW-SB has any objectively reliable way to account for their inventory of
records.

Box labeling is insufficient

Due to these known HMS location issues, R W -SB does not utilize HMS generated labels for
marking boxes. Currently no containers are barcoded for HMS use. In fact, a vast amount of
archival boxes at RW-SB have no labels at all. Instead, some identifying information is written
on the boxes in pencil. In one area, the information was written on sticky notes and affixed to
the boxes. One of these sticky notes was observed laying on the ground of the stack area.
However, some boxes have no information on the outside. Others were labeled with information
which would not appropriately identify the box, such as being labeled simply ..Box 2" with no
other writing. Some of the boxes accessioned-in-place at the co-located FRC had labels marking
them as permanent records, others did not.

Holdings maintenance is not adequate

Staff conceded holdings maintenance is not being properly done. A walk through of the stack
areas revealed large numbers of archival boxes with the front ripped off or damaged. Staff
indicated ladders often catch on the counter-earthquake brackets at the bottoms of the shelves
and tum into the shelf, causing the ladder to damage the boxes. Also, many books are stored on
shelves standing on end, often leaning on other books or the shelving at a considerable angle.
Large amounts of oversized records, i.e. maps, are rolled up and placed together in plastic bags.
These groups have squished together so the rolls are no longer round.




                                               Page3 

                                NARA's web site is http://www.nara.gov 

Further, two to three thousand square feet of new materials are accessioned·in-place each year in
the co-located FRC. No holdings maintenance is performed on these records. The FRC space is
not climate controlled, and in some observed examples, records had been accessioned-in-place
without any holdings maintenance for over thirty years. Staff further commented no preservation
or description work was being done for new accessions, and only the initial accessioning
paperwork was completed to accession them in place.

Staff focus on reference and inaccurate reference data

Staff indicated they spend the majority of their time performing reference activities, which
limited the amount of effort available for processing activities. Colloquially we were told staff
spend about 80% of their time doing reference activities, except for one staff member who was
I 00% devoted to processing activities. However, a review of position descriptions does not
indicate such a large percentage of workload should be dedicated to reference activities. Further,
it is unknown if the reference workload justifies the large amount of staff time used, because the
database logging reference requests is inaccurate. All correspondence to the facility, such as
grant proposals, requests for tours, etc. were being logged into the system as reference requests.
Further, researchers were advised to break single reference requests into multiple requests. For
example, if a researcher were to send an email requesting immigration file information on a
single person who might have had ten aliases, the standing practice would have been to ask the
researcher to resend a request for each alias so it could be logged ten times. We were informed,
despite recent direction to do otherwise, staff continue to follow these types of practices.

Overcrowded storage room

On the lower floor there is a very large storage room. Recently it tested positive for elevated
radon levels, and consequently venting was installed. If levels remain elevated when it is
scheduled for retesting, the room will have to be emptied for a more thorough remediation
measure. However, there appears no physical place RW-SB could move the massive amounts of
materials to within the facility. There are hundreds oflarge boxes, equipment, storage lockers,
old exhibits, and other random supplies. Further, there were multiple boxes of material which
resembled records. These materials may be non-record exhibit material or "probable non-record
duplications." An original 1906 newspaper announcing "Earthquake and Fire: San Francisco in
Ruins" and other original materials are located in the storage room as well.

Records are at risk of loss

Due to the conditions observed, RW-SB does not appear to have appropriate physical and
intellectual control over NARA's records. Accordingly, the current situation at RW-SB
NARA records at risk of loss. This risk is               other issues ·      ·




                                              Page4 

                               NARA's web site is http://www.nara.gov 

Despite the issues identified, we make no claim RW-SB staff cannot locate records for research
requests. Research requests are regularly filled. However, RW-SB staff are overly reliant on
local finding aids, legacy systems, and the undocumented personal knowledge of certain staff.
We were on-site for a limited time, and performed a very limited review. This management
letter is not meant to convey all issues observed at RW-SB. However, we believe these represent
serious issues which demand the immediate attention of senior staff. Please provide a written
response to these matters within 30 days ofthe date of this letter. After sufficient management
attention is given to this area, we plan to audit various aspects of operations at RW-SB in the
future.

If you have any questions or require additional information, please contact me at 301-837-3000.
As with all OIG products, we will determine what information is publicly posted on our website
from this management letter. Should you or management have any redaction suggestions based
on FOIA exemptions, please submit them to my counsel within one week from the date of this
letter. Should we receive no response within this time frame, we will interpret that as
confirmation NARA does not desire any redactions to the posted report.




James Springs
Acting Inspector General


cc: Jay Bosanko, Chief Operating Officer (COO)
    William Mayer, Executive for Research Services (R)




                                              Page 5 

                               NARA's web site is http://www.nara.gov 

